'w

CERTIFICATE OF SERVICE
No. TBD
Campbell
Petitioner(s)
v.
Bennett et al.
Respondent(s)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Charles
R. Campbell Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Hollie S. Bennett
Attorney at Law
2290 Femcliff Road
Rock Hill, SC 29732
(803) 980-5810

Karen K. Shelton
Family Court Evaluator
8832 Blakeney Professional Drive
Charlotte, NC 28277
(704) 973-4444

Emily H. FanDirector
South Carolina Dept. Labor
110 Centerview Drive, Kingstree Building
Columbia, SC 29210
(803) 396-4300

Christa T. Bell
Office of Investigations & Enforcement,
South Carolina Dept, of Labor
110 Centerview Drive, Kingstree Building
Columbia, SC 29210
(803) 396-4300

Shirley A. Vickery
Board of Examiners in Psychology,
South Carolina Dept. Labor
110 Centerview Drive, Kingstree Building
Columbia, SC 29210

M. Dawes Cooke, Jr.
South Carolina Bar Board of Governors
950 Taylor Street
Columbia, SC 29201
(803) 799-6653

Board of Examiners in Psychology
South Carolina Dept, of Labor
110 Centerview Drive, Kingstree Building
Columbia, SC 29210
(803) 396-4300

South Carolina Bar
950 Taylor Street
Columbia, SC 29201
(803) 799-6653

South Carolina Bar Board of Governors
950 Taylor Street
Columbia, SC 29201
(803) 799-6653
Lucas'DeDeus
July 15, 2020
SCP Tracking: Campbell-P.O. Box 38150-Cover White

